   DEPARTMENT OF HOMELAND SECURITY
                                         Fnepare

      Office of Inspector General


        An Assessment of United States
     Immigration and Customs Enforcement’s
           Fugitive Operations Teams




OIG-07-34                        March 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      March 5, 2007


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, effectiveness, and efficiency within the department.

This report addresses the effectiveness of United States Immigration and Customs Enforcement’s
Fugitive Operations Teams. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, statistical analyses, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents


  Executive Summary .......................................................................................................................1

  Background ....................................................................................................................................2

  Results of Review ...........................................................................................................................7

          Fugitive Apprehension Reports Should Accurately Reflect the Teams’ Activities ...............7
          Fugitive Alien Backlog Is Increasing Despite the Teams’ Efforts .......................................12
          Removal Rate of Teams’ Fugitive Alien Apprehensions Cannot be Determined................17
          Team Members Performed Non-Fugitive Operations Duties...............................................19
          Progress Has Been Made in Staffing the Teams...................................................................21
          Partnerships with Federal, State, and Local Agencies are Effective ....................................24
          Team Members Have Basic Law Enforcement Training .....................................................29

  Management Comments and OIG Analysis ..............................................................................32

  Tables

  Table 1:        Funds Allocated to Fugitive Operations ........................................................................6
  Table 2:        Fugitive Apprehensions Reported by Field Offices with Authorized Teams................9
  Table 3:        Estimated Fugitive Alien Backlog ...............................................................................12
  Table 4:        Fugitive Alien Apprehensions Reported by All Field Offices.....................................13

  Figures

  Figure 1: United States Immigration and Customs Enforcement Organization Chart..................2
  Figure 2: Fugitive Operations Team……………………………………………………………..6

  Appendices

  Appendix A:            Removal Proceedings Process..............................................................................39
  Appendix B:            Fugitive Operations Support Units.......................................................................41
  Appendix C:            Purpose, Scope, and Methodology .......................................................................43
  Appendix D:            Recommendations ................................................................................................45
  Appendix E:            Management Response to Draft Report ...............................................................46
  Appendix F:            Major Contributors to this Report ........................................................................62
  Appendix G:            Report Distribution...............................................................................................63




             An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams
Abbreviations

CBP     United States Customs and Border Protection
DHS     Department of Homeland Security
ICE     United States Immigration and Customs Enforcement
INS     Immigration and Naturalization Service
OIG     Office of Inspector General
PL      Public Law
USC     United States Code




      An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams
OIG
Department of Homeland Security
Office of Inspector General


  Executive Summary
                    To bring integrity to the immigration process, in February 2002, the legacy
                    Immigration and Naturalization Service established the National Fugitive
                    Operations Program under the auspices of the Office of Detention and
                    Removal Operations. When the Department of Homeland Security was
                    formed in March 2003, the office became a part of United States Immigration
                    and Customs Enforcement.

                    The purpose of the National Fugitive Operations Program is to identify,
                    locate, apprehend, and remove fugitive aliens from the United States.
                    Fugitive aliens are individuals who have unexecuted final orders of removal
                    from the Executive Office for Immigration Review. The orders require the
                    aliens to be removed from this country. The ultimate goal of the program is to
                    eliminate the backlog of fugitive aliens. As of August 2006, the Office of
                    Detention and Removal Operations estimated there were 623,292 fugitive
                    aliens in the United States. Since 2003, the office allocated more than $204
                    million to deploy 52 Fugitive Operations Teams. As of October 2006, 50
                    teams are operational and apprehending fugitive aliens in various cities
                    nationwide. Following are the results of our review:

                    •    Fugitive alien apprehensions reported by the Office of Detention and
                         Removal Operations did not accurately reflect the teams’ activities;
                    •    The fugitive alien backlog increased despite the teams’ efforts;
                    •    The teams’ effectiveness was hampered by insufficient detention capacity,
                         limitations of an immigration database, and inadequate working space;
                    •    The removal rate of fugitive aliens apprehended by the teams could not be
                         determined;
                    •    The teams performed duties unrelated to fugitive operations, contrary to
                         Office of Detention and Removal Operations policy;
                    •    Despite hiring obstacles, progress has been made in staffing the teams;
                    •    The teams have effective partnerships with federal, state, and local
                         agencies; and
                    •    The teams have basic law enforcement training.

                    We are making seven recommendations to the Assistant Secretary for United
                    States Immigration and Customs Enforcement to address our concerns. The
                    Office of Detention and Removal Operations concurs with all seven
                    recommendations and has taken steps to address them.

         An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                    Page 1
       Background
                             United States Immigration and Customs Enforcement (ICE) is the largest
                             investigative branch within the Department of Homeland Security (DHS).
                             ICE’s mission is to protect America and uphold public safety by targeting the
                             people, money, and materials that support terrorist and criminal activities.
                             Sections 236 and 287 of the Immigration and Nationality Act provide
                             authority to ICE officers to arrest, detain, and remove certain aliens from the
                             United States.1 ICE has more than 15,000 employees working in offices
                             nationally and around the world, and its fiscal year (FY) 2006 budget was
                             $3.1 billion. ICE is comprised of four divisions:

                                            Figure 1:     ICE Organization Chart

                                                                         ICE
                                                                     Headquarters




                                                      Office of Detention
                                   Office of                                         Office of      Office of Federal
                                                        and Removal
                                 Investigations                                     Intelligence    Protective Service
                                                          Operations



                             The Office of Detention and Removal Operations is responsible for promoting
                             public safety and national security by making certain, through the
                             enforcement of national immigration laws, that all removable aliens depart the
                             United States. This task is accomplished through the apprehension, detention,
                             and removal of illegal aliens. This office manages illegal aliens in its custody,
                             known as the “detained docket,” and tracks illegal aliens who are not in
                             custody, known as the “non-detained docket.” As of June 2006, there were
                             4,170 full-time staff members working in 23 field offices throughout the
                             country. For FY 2006, the Office of Detention and Removal Operations’
                             budget was $1.0 billion.

                             Fugitive Aliens

                             Fugitive aliens are non-United States citizens not currently in the custody or
                             control of ICE who have failed to depart the United States pursuant to a final
                             order of removal, deportation or exclusion, or have failed to report to a DRO
                             officer after receiving notice to do so.2 The most common reasons a fugitive
                             alien’s whereabouts are unknown include:


1
    8 USC §§ 1226 and 1357.
2
    In this report, the terms “fugitive alien” and “absconder” are used interchangeably.

                  An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                               Page 2
                              •    The alien did not appear for deportation as ordered by the Executive
                                   Office for Immigration Review immigration judge’s final order of
                                   removal;

                              •    The fugitive left the United States by his or her own choice without the
                                   knowledge of the Office of Detention and Removal Operations; or

                              •    The Office of Detention and Removal Operations is unaware that the
                                   fugitive changed his or her immigration status or has died.

                          As of March 2006, there were an estimated 11.5 to 12 million illegal aliens
                          living in the United States.3 As of August 2006, the Office of Detention and
                          Removal Operations estimated there was a backlog of 623,292 fugitive aliens.
                          Therefore, fugitive aliens constitute about 5.4 percent of the estimated illegal
                          alien population.

                          Early Efforts to Apprehend Fugitives

                          The Office of Detention and Removal Operations deportation officers have
                          always apprehended fugitive aliens on an ad hoc basis, but teams were not
                          exclusively devoted to this task. In an attempt to establish teams dedicated to
                          this mission, in June 1995, the Commissioner of the legacy Immigration and
                          Naturalization Service (INS) and the Attorney General signed The National
                          Detention, Transportation and Removal Plan, an effort to stop the increase of
                          fugitive aliens in this country. The plan called for the creation of “abscondee
                          removal teams,” and the 1996 Appropriation Bill provided funding for these
                          new positions. According to one Office of Detention and Removal Operations
                          document, although the positions were earmarked for the teams, the
                          appropriation bill did not mandate that the positions be used for the teams.
                          Consequently, the positions were absorbed into day-to-day INS detention and
                          deportation operations.

                          In August 1998, INS instituted another effort to apprehend fugitive aliens.
                          The INS Executive Associate Commissioner for Field Operations signed the
                          Fugitive Apprehension Operations, Detention & Deportation Operations Unit
                          Planning Initiative. This initiative called for the creation of Fugitive
                          Operations Teams and specific training necessary to apprehend fugitives.
                          According to an Office of Detention and Removal Operations document, the
                          training was initially provided, but no teams were ever established.




3
 Pew Hispanic Center, The Size and Characteristics of the Unauthorized Migrant Population in the U.S., March 7, 2006,
page i.

              An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                         Page 3
                         Absconder Apprehension Initiative

                         The terrorist attacks of September 2001 brought new attention to the fugitive
                         alien backlog. The Deputy Attorney General’s Absconder Apprehension
                         Initiative made fugitive apprehension a priority for legacy INS, the Federal
                         Bureau of Investigation, and the United States Marshals Service.4 At that
                         time, INS determined there were approximately 314,000 fugitive aliens in the
                         United States. The objective of the initiative was to “locate, apprehend,
                         interview, and deport” those fugitive aliens. In support of the USA PATRIOT
                         Act, ICE authorized 40 positions to be used exclusively for dedicated teams to
                         apprehend fugitives.5 Subsequently, the Office of Detention and Removal
                         Operations’ headquarters deployed eight five-person teams in seven cities.

                         An additional objective of the Absconder Apprehension Initiative was the use
                         of the National Crime Information Center to enhance federal authorities’
                         ability to locate fugitives. This center is a nationwide law enforcement
                         consortium and computerized index of criminal justice information. The
                         Absconder Apprehension Initiative called for the information on 300,000
                         fugitive aliens to be placed into the National Crime Information Center
                         database. Through its Law Enforcement Support Center, part of ICE’s Office
                         of Investigations, ICE administers and controls information on immigration
                         violators in the database. The Law Enforcement Support Center provides
                         immigration identity and status information to federal, state, and local law
                         enforcement agencies on criminal aliens.

                         National Fugitive Operations Program

                         To enforce unexecuted final orders of removal and bring integrity to the
                         immigration process, in February 2002, legacy INS established the National
                         Fugitive Operations Program under the auspices of the Office of Detention
                         and Removal Operations. When DHS was created in March 2003, ICE
                         absorbed the National Fugitive Operations Program. According to an ICE fact
                         sheet:

                                   The primary mission of [the National Fugitive Operations
                                   Program] is to identify, locate, apprehend, process, and remove
                                   fugitive aliens from the United States with the highest priority
                                   placed on those fugitives who have been convicted of crimes.
                                   Further, [the National Fugitive Operations Program’s] goal is
                                   to eliminate the backlog of fugitives and ensure that the



4
 Department of Justice Memorandum, “Guidance for Absconder Apprehension Initiative,” January 25, 2002.
5
 Uniting and Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism Act
of 2001, PL-107-56.

              An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                         Page 4
                     number of aliens deported equals the number of final orders of
                     removal issued by the immigration courts in any given year.

           In its Strategic Plan, Endgame, dated June 2003, the Office of Detention and
           Removal Operations indicated that the National Fugitive Operations
           Program’s goal was to eliminate the backlog of fugitive aliens by the end of
           2012 and acknowledged that the initial allocation of 40 positions to fugitive
           operations would not be enough to reach that goal.

                     The [National Fugitive Operations Program] will target this
                     backlog by facilitating the apprehension and subsequent
                     removal of those fugitives. The goal over the next ten years
                     [2003 – 2012] will be to eliminate this backlog and to ensure
                     that our efforts in terms of apprehension and removal of
                     fugitive cases equal the number of new cases falling into this
                     category. While woefully inadequate to achieve the goal, the
                     creation of 40 positions dedicated to the [National Fugitive
                     Operations Program] is a promising start.

           However, in its Detention and Deportation Officer’s Field Manual, dated
           August 2003, the Office of Detention and Removal Operations stated a more
           aggressive goal for the program: “The intended goal of this manual is the
           elimination of backlog fugitive … cases by the conclusion of fiscal year
           2009.”

           Whether by 2009 or 2012, apprehending and removing fugitive aliens and
           ensuring that final orders of removal are executed are clearly priorities for the
           Office of Detention and Removal Operations.

           Funding for Fugitive Operations

           Since FY 2003, Congress has provided the Office of Detention and Removal
           Operations funding to support fugitive operations. According to our analysis
           of ICE financial reports, since FY 2003, this office has allocated more than
           $204 million for the apprehension, detention, and removal of fugitive aliens.




An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 5
                           Table 1: Funds Allocated to Fugitive Operations

                              Fiscal Year         Total Funds Allocated
                               FY 2003                   $9,333,519
                               FY 2004                  $12,683,962
                               FY 2005                  $72,186,192
                               FY 2006                 $110,638,837
                                 Total                 $204,842,510
                           Source: ICE Federal Financial Management System reports

                           Fugitive Operations Team Structure

                           Under the National Fugitive Operations Program, each team consists of seven
                           members, as depicted in the figure below. The four deportation officers, who
                           report to the supervisory deportation officer, are responsible for identifying,
                           locating, and apprehending fugitive aliens.6 The immigration enforcement
                           agent assists in apprehending fugitives and transporting them from the place
                           of arrest to an Office of Detention and Removal Operations detention facility
                           or processing center. The deportation assistant is a clerical employee who
                           performs administrative tasks.

                           Figure 2: Fugitive Operations Team




                                               Supervisory
                                            Deportation Officer

                            Immigration                               Deportation
                            Enforcement                                Assistant
                               Agent




                                            Deportation Officers

                           Typically, a team has seven members. However, there are instances in which
                           this does not apply. For example, when one city has two teams, only one
                           supervisory deportation officer is assigned to supervise both teams.
                           Additionally, one field office assigned two immigration enforcement agents,
                           instead of one, to a team.



6
 Supervisory deportation officers and supervisory detention and deportation officers have the same responsibilities and
both are GS-13 supervisory officers. In this report, we use both titles to refer to Fugitive Operations Teams’ supervisors.

               An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                             Page 6
                    Originally, only experienced GS-12 or “journeyman level” deportation
                    officers were hired for the teams. However, the Office of Detention and
                    Removal Operations recently decided to hire Fugitive Operations Teams’
                    deportation officers at the GS-11 level as well. A United States Customs and
                    Border Protection (CBP) human resources manager speculated that hiring at
                    the GS-11 level was due to the depletion of the available GS-12 level
                    applicant pool.


Results of Review
     Fugitive Apprehension Reports Should Accurately Reflect the Teams’
     Activities
                    To measure the Fugitive Operations Teams’ performance, the Office of
                    Detention and Removal Operations used weekly field office apprehension
                    reports provided to headquarters. However, these reports did not accurately
                    reflect the teams’ productivity. The Office of Detention and Removal
                    Operations’ statistical reports for the teams included apprehensions they
                    made, as well as deportation officers within field offices who are not team
                    members, and other federal, state, and local law enforcement agencies. The
                    reports also included case closures, in which the Fugitive Operations Team
                    verified that a fugitive alien died, voluntarily left the country, or changed their
                    immigration status by, for example, becoming a United States citizen or legal
                    permanent resident. The reported apprehensions involved varying levels of
                    Fugitive Operations Teams’ effort, from taking custody of and processing
                    aliens already arrested by other law enforcement agencies to receiving leads,
                    searching databases, talking to informants, and making apprehensions.

                    While it is not a requirement that the Fugitive Operations Teams and non-
                    Fugitive Operations Teams apprehensions be recorded separately, the current
                    reporting system does not provide a means by which managers can assess
                    teams’ performance. There is also no requirement that the level of the teams’
                    involvement be a determining factor when receiving credit for apprehensions
                    made by other sources, such as National Crime Information Center matches
                    and arrests by other law enforcement agencies.

                    The fugitive apprehensions, as reported by the Office of Detention and
                    Removal Operations, do not represent the productivity of the Fugitive
                    Operations Teams but those of all field offices. In order to assess the true
                    performance of the teams, it is essential that their activities be documented
                    separately from other activities in the field offices. For this reason, the
                    apprehension numbers used in this section of our report are presented as field
                    office apprehensions rather than those of the teams.


         An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                    Page 7
                          Fugitive Operations Teams’ Goals and Reported Apprehensions in Fiscal
                          Years 2003 – 2006

                          Varying apprehension priorities have been established since the formation of
                          Fugitive Operations Teams in FY 2003. Statistical information compiled by
                          the Office of Detention and Removal Operations shows all apprehensions
                          made in each field office from FY 2003 to FY 2006, making it virtually
                          impossible to determine the actual number of apprehensions made by the
                          teams. Consequently, the productivity of Fugitive Operations Teams is
                          uncertain as well as whether the teams met their annual apprehension goals.

                          In FY 2003, eight teams were created and distributed to field offices within
                          the Office of Detention and Removal Operations, then a part of legacy INS. A
                          headquarters manager said statistics for the first teams were compiled as of
                          March 2003. He said there was no funding specifically for Fugitive
                          Operations Teams in FY 2002, but fugitive apprehensions had been a duty for
                          deportation officers before the inception of the National Fugitive Operations
                          Program.

                          The goal of each team in FY 2003 was to apprehend 125 fugitive aliens, with
                          priority given to backlog fugitive alien cases and aliens released on orders of
                          supervision, a form of relief from detention that is similar to a parole. The
                          Office of Detention and Removal Operations sets conditions of release on
                          orders of supervision. Five of the seven field offices apprehended more than
                          125 fugitive aliens. Two field offices did not attain the goal.

                          In June 2004, the fugitive apprehension goal was changed and required that at
                          least 75% of each team’s apprehensions be criminal aliens.7 This requirement
                          remained in effect until January 2006. Field office reports indicated that the
                          fugitive apprehension goal was not met during this period of time.

                          In late January 2006, the fugitive apprehension goal was changed again. This
                          goal required the apprehension of 1,000 fugitive aliens per team each year.
                          The apprehensions were prioritized as follows: (1) fugitives posing a threat to
                          the nation; (2) fugitives posing a threat to the community; (3) fugitives with a
                          violent criminal history; (4) criminal fugitives; and (5) non-criminal
                          fugitives.8 We were unable to determine whether this goal was achieved since
                          it changed four months into the fiscal year.



7
  Office of Detention and Removal Operations Memorandum, “Case Load Priority with Fugitive Operations,” January
22, 2004. A “criminal fugitive” is a fugitive alien who has a criminal conviction identified in their Deportable Alien
Control System record.
8
  Office of Detention and Removal Operations Memorandum, “Fugitive Operations Case Priority and Annual Goals,”
January 31, 2006.

               An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                          Page 8
                          The office’s then-acting director cited two reasons why the goal changed to
                          1,000 apprehensions. First, the creation of the Fugitive Operations Support
                          Center would give teams more time to focus on apprehensions by vetting
                          leads and performing database checks on fugitive aliens.9 Purportedly, this
                          would reduce the burden on Fugitive Operations Teams in performing these
                          tasks. Secondly, because teams would no longer be required to apprehend
                          75% criminal aliens, the teams would be able to apprehend more fugitives
                          aliens overall. He said the previous 75% goal predisposed the teams to focus
                          on capturing criminal fugitives aliens, which was more time-consuming and
                          neglected the arrests of non-criminal fugitives aliens. A second manager said
                          apprehending criminal fugitives required more time due to tasks such as
                          following up on leads and surveillance activities.

                          The table below shows the fiscal years in which Fugitive Operations Teams
                          were authorized and the apprehensions reported by the field offices assigned
                          those teams. These figures include all apprehensions made within field
                          offices, whether by team members or not. The Office of Detention and
                          Removal Operations official responsible for compiling statistical reports said
                          this reporting method did not allow him to distinguish fugitive aliens
                          apprehended by teams from those apprehended by others. Therefore, the table
                          is not an accurate portrayal of the Fugitive Operations Teams’ productivity,
                          but it is our best effort to reconcile the figures given the manner in which the
                          office reported fugitive apprehensions. Furthermore, because it reported
                          apprehensions made by team and non-team members, the statistics presented
                          below overestimate the teams’ productivity.

                          Table 2: Fugitive Apprehensions Reported by Field Offices with
                          Authorized Teams

                                                                             Fugitive
                            Fiscal      Authorized          Fugitive                           Total Fugitive
                                                                              (Non-
                            Year10       Teams            (Criminals)                          Apprehensions
                                                                            Criminals)
                             2003              8                474             749                   1,223
                             2004             18              4,378           3,956                   8,334
                             2005             44              4,651           4,304                   8,955
                             2006             52              4,158           7,706                  11,864
                             Total            52             13,661          16,712                  30,376

                          Source: Office of Detention and Removal Operations fugitive apprehensions reports



9
 The Fugitive Operations Support Center is described in greater detail in Appendix B.
10
  The statistics for FY 2003 only reflect apprehensions reported during the second half of FY 2003, March 2003 through
September 2003, and the statistics for FY 2006 only reflect apprehensions reported during the first three quarters of FY
2006, October 2005 through June 2006.

               An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                          Page 9
           Additional Statistics Included in Fugitive Apprehension Reports

           The Office of Detention and Removal Operations reported fugitive alien
           apprehensions from its field offices and satellite offices that do not have
           dedicated Fugitive Operations Teams. The apprehensions made by
           deportation officers in those offices are combined with apprehensions made
           by teams and other officers assigned to field offices where teams are
           deployed. For example, a supervisor explained that a satellite office under his
           field office’s supervision has two officers assigned to the non-detained docket
           who also participated in fugitive operations. Fugitive arrests made by those
           deportation officers are included in the field office weekly apprehension
           report even though these officers are not assigned to the team.

           In addition, reported fugitive apprehension statistics included arrests of
           fugitive aliens by other law enforcement agencies using information extracted
           from the National Crime Information Center. For example, a local police
           officer might encounter a suspected illegal alien and check the person’s
           identity with the Law Enforcement Support Center. When the person is
           identified as a fugitive alien in National Crime Information Center, the officer
           contacts the Office of Detention and Removal Operations. A manager
           explained that if local or state authorities intend to prosecute the fugitive alien
           on local charges, the affected authority will take custody of the individual, and
           the Fugitive Operations Team members place a detainer on the fugitive alien.
           When no charges are filed, team members arrange to pick up the fugitive alien
           for processing.

           A detainer is an agreement that state or local prison or jail officials will notify
           the Office of Detention and Removal Operations that illegal aliens are about
           to be released. Officers from the Office of Detention and Removal
           Operations’ can then take the aliens into custody. Detainers placed on
           fugitive aliens were reported as apprehensions, even though the alien was not
           in the office’s custody. However, as another officer noted and an Office of
           Detention and Removal Operations headquarters manager confirmed,
           headquarters told Fugitive Operations Teams to cease counting detainers as
           apprehensions. One officer said that state and local authorities sometimes fail
           to honor detainers and release the fugitive without notifying the office.

           Case closures are another means by which field offices are given credit for
           apprehensions. A case closure represents a fugitive alien who is determined
           by the Office of Detention and Removal Operations to have (1) changed
           immigration status, for example, the fugitive became a naturalized United
           States citizen or a legal permanent resident; (2) died; or (3) left the country
           voluntarily. Once a deportation officer verifies that the fugitive alien meets
           one of the above conditions, the case may be closed. A majority of managers


An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 10
           and supervisors said they advised the teams to include case closures as
           apprehensions based on the amount of time deportation officers spend
           following leads and identifying aliens as fugitives.

           Accurate Reporting Needed to Assess Progress of Fugitive Operations Teams

           The Fugitive Case Management System, a database that became operational in
           June 2006, has replaced apprehension reports. This replacement provides the
           Office of Detention and Removal Operations with a computerized system to
           manage fugitive alien leads and track fugitive arrests or case closures. The
           database allows apprehension information to be entered by field office
           personnel and sent directly to headquarters for preparation of statistical
           apprehension reports. Since the database became operational after the
           conclusion of our fieldwork, we were unable to assess its effectiveness or
           accuracy.

           Due to the various ways the office characterizes and reports apprehensions, it
           was difficult to determine with certainty whether the agency met the target
           goals from FY 2003 to FY 2005. Also, we were unable to predict whether the
           FY 2006 target goal of 1,000 apprehensions per team might be achieved since
           the goal changed four months into the fiscal year. Each Fugitive Operations
           Team must now arrest 1,000 fugitives a year, yet it cannot be determined
           whether the teams have ever met any performance threshold based on the past
           reporting of apprehensions per field office.

           Performance measures should be valid representations of the progress toward
           achieving program goals and objectives. Without accurate tracking of
           program performance, the office’s managers cannot make sound judgments
           about the program. Also, program managers cannot effectively estimate the
           benefit of additional Fugitive Operations Teams. Since the reporting process
           was a cumulative accounting of all apprehensions made within the field office,
           it was not representative of apprehensions made by the teams. Consequently,
           the Office of Detention and Removal Operations’ fugitive operations
           apprehension reports did not properly reflect team performance.

           Recommendation

           We recommend that the Assistant Secretary for United States Immigration and
           Customs Enforcement:

           Recommendation 1: Establish a Fugitive Operations Team reporting system
           that enables Office of Detention and Removal Operations managers to classify
           all categories of apprehensions.



An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 11
Fugitive Alien Backlog Is Increasing Despite the Teams’ Efforts
               The Office of Detention and Removal Operations’ officers and managers cited
               several factors that limited the effectiveness of Fugitive Operations Teams in
               decreasing the fugitive alien backlog. These factors include the inaccuracy
               and functionality of the Office of Detention and Removal Operations’
               immigration database, unavailability of adequate bed space to detain fugitive
               alien apprehensions, and inadequate working space for additional staff hired
               to serve on the teams.

               The office established the National Fugitive Operations Program to aid in
               identifying, locating, apprehending, processing, and removing fugitive aliens
               by deploying teams nationwide. According to the Detention and Deportation
               Officer’s Field Manual, the Fugitive Operations Team’s “immediate mission
               is the elimination of fugitive cases in their assigned office.” However, despite
               the efforts of the teams, the backlog of fugitive alien cases has increased each
               fiscal year since the program was established in February 2002. The fugitive
               alien population is growing at a rate that exceeds the teams’ ability to
               apprehend. The factors mentioned earlier contributed to the inability of
               Fugitive Operations Team apprehensions to keep pace with the increase in the
               backlog of fugitive aliens, not to mention reduce it.

               Table 3: Estimated Fugitive Alien Backlog

                                          Total Number            Change From             Percent
                        Date
                                           of Fugitives           Previous Year           Change
                 September 2001              331,734
                 September 2002              376,003                   44,269             13.3 %
                 September 2003              418,753                   42,750             11.4 %
                 September 2004              465,353                   46,600             11.1 %
                 September 2005              536,644                   71,291             15.3 %
                  August 2006                623,292                   86,648             16.1 %

               Sources: DHS OIG, An Assessment of the Proposal to Merge Customs and Border Protection
                        with Immigration and Customs Enforcement, OIG-06-04, November 2005, page 90
                        and the Office of Detention and Removal Operations.

               The backlog of fugitive alien cases has increased, on average, 51,228 each
               year over the four-year period ending September 2005. Also, the increase for
               the period from October 2005 to August 2006 was 86,648 fugitive alien cases.
               As of August 2006, the Office of Detention and Removal Operations
               estimated there were 623,292 fugitive aliens.


    An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                               Page 12
           Table 4: Fugitive Alien Apprehensions Reported by All Field Offices

                                                                         Fugitive
                                                        Fugitive                       Total Fugitive
                        Time Period                                       (Non-
                                                       (Criminal)                      Apprehensions
                                                                          Crim.)
             March 2003 – September 2003                   1,302           2,088             3,390
             October 2003 – February 2004                  1,631           2,176             3,807
             March 2004 – September 2004                   3,917           3,261             7,178
             October 2004 – February 2005                  2,152           2,833             4,985
             March 2005 – September 2005                   2,550           3,669             6,219
             October 2005 – February 2006                  2,104           2,557             4,661
                March 2006 – June 2006                     2,054           5,149             7,203
                        Total                             15,710          21,733            37,443

           Source: Office of Detention and Removal Operations fugitive apprehension reports.

           According to our analysis presented in Table 2, the field offices with
           authorized Fugitive Operations Teams reported apprehending 30,376 fugitives
           since FY 2003. In our review of all apprehensions reported from March 2003
           through June 2006 by all field offices, the Office of Detention and Removal
           Operations apprehended 37,443 fugitives. With a backlog of 623,292
           fugitives that is growing at a rate of more than 50,000 fugitives per year, the
           National Fugitive Operations Program’s progress in addressing the backlog
           has been limited. It is highly improbable that it will be eliminated in the near
           future.

           Inadequate detention bed space, the overall capabilities of the Deportable
           Alien Control System and insufficient or nonexistent workspace are factors
           that limit the effectiveness of the Fugitive Operations Teams. Other factors
           that limit the teams’ effectiveness are members performing non-fugitive
           operations duties and insufficient staffing, both discussed in more detail later
           in this report.

           Bed Space Constraints

           Some of the Office of Detention and Removal Operations’ officers noted that
           the lack of adequate detention space limits the effectiveness of the Fugitive
           Operations Teams. A field office director reported ceasing fugitive operations
           for six weeks because of insufficient bed space and another manager reported
           slowing team operations for the same reason. Other managers indicated that
           as more officers are hired to serve on the teams, managing the increased
           fugitive apprehensions with their current bed space capacity would become
           more difficult.


An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 13
           Aliens in the Office of Detention and Removal Operations’ custody are held
           in three types of detention facilities. These include Service Processing
           Centers, which are government-owned and operated, Contract Detention
           Facilities, which are contractor-owned, and local or county jails. A
           headquarters official estimated that about half of the office’s detained
           population is in local or county jails. Additionally, the office has bed space
           allocated by the Federal Bureau of Prisons, which can only be used for aliens
           who have been convicted of crimes.

           A supervisory deportation officer from a field office, which was authorized
           400 beds per day, said his office’s three teams stopped apprehending fugitive
           aliens for approximately six weeks because no facilities were available to
           house the aliens. Additionally, the Office of Detention and Removal
           Operations’ field offices often share bed space with other field offices.
           According to a field office director in a neighboring city, which was
           authorized 707 bed spaces per day, he had to slow down fugitive operations
           because all the office’s beds in the region were full. The director told us he
           did not think the team would achieve its goal because of a lack of adequate
           bed space. By June 2006, the three teams in the nearby city had apprehended
           approximately 800 fugitives. The field office director foresaw apprehending
           1,500 to 2,000 fugitives by the end of the year, depending on bed space
           availability.

           Another supervisor indicated that a lack of adequate detention space is the
           team’s biggest limitation. The field office director said that even if a team
           could apprehend 1,000 fugitives, they would have no place to put them. For
           FY 2006, this field office was funded for 246 bed spaces to hold not only
           Fugitive Operations Team’s fugitive alien apprehensions, but also aliens
           apprehended by the other office’s officers, the ICE Office of Investigations,
           and CBP Inspections at airports. The field office director stated that he is
           attempting to convince the office’s headquarters managers to increase funding
           for this field office to 270 or 280 bed spaces. He reported that his detained
           population for that day was about 280.

           Deportable Alien Control System Limitations

           The Office of Detention and Removal Operations manages cases in the
           Deportable Alien Control System, a database that is the office’s system of
           records. Legacy INS implemented this database, which provides ICE with
           data concerning the detention and deportation of aliens in accordance with
           immigration and nationality laws. The database also serves as a docket and
           control system by providing the Office of Detention and Removal Operations
           management with information concerning the status or disposition of
           deportable aliens.


An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 14
                         The database contains four types of information: (1) “biographical records,”
                         including name, alias(es), nationality, date of birth, etc.; (2) “detention
                         records,” including whether the alien is in the Office of Detention and
                         Removal Operations’ custody and where; (3) “case records,” which include
                         deportation or removal case information; and (4) “jail records,” which include
                         information on aliens serving sentences. According to an analyst, there were
                         approximately 4 million records in the database and 1.3 million open cases, of
                         which almost half were fugitive aliens.

                         Fugitive Operations Team officers said that the database limits the capability
                         of the teams. Specifically, they said the information in the Deportable Alien
                         Control System was inaccurate or incomplete. One supervisor stated that the
                         database has “been neglected for the past 25 years.” An analyst, who has
                         worked the Deportable Alien Control System help desk for ten years,
                         estimated that approximately 50% of the data in the database is accurate, and
                         there is more incomplete than inaccurate information. Having a large number
                         of aliens to manage and few staff members to handle them made maintaining
                         information difficult. For example, New York City had 200,000 aliens on its
                         non-detained docket and at one point only 10 deportation officers to manage
                         both detained and non-detained cases in the Deportable Alien Control System.
                         Because of the ratio of cases to deportation officers, timely updating of the
                         database was nearly impossible.

                         Recognizing the problems associated with the database’s data integrity, the
                         Office of Detention and Removal Operations issued a directive mandating that
                         all personnel “completely enter all data fields in [Deportable Alien Control
                         System]” and ensure the information is accurate and accessible to both the
                         field and headquarters.11 In addition, some field offices were directed to
                         update the fugitive data in their area of responsibility to reflect actual cases of
                         fugitives that are removable and to update past due call-up dates, which is a
                         case call-up function in the database that allows officers to review cases
                         periodically.

                         Some officers and managers mentioned a proposed replacement for the
                         Deportable Alien Control System, called the ENFORCE Removals Module,
                         which is an automated law enforcement information system. According to the
                         Office of Detention and Removal Operations, the purpose of the program is to
                         deploy a service-wide, information-based system that uses automation to
                         reduce the amount of time agents spend on manual administrative work.
                         However, as of August 2006, the replacement has not been implemented.



11
  Office of Detention and Removal Operations Memorandum, “Reiteration of Data Entry Policy for the Deportable
Alien Control System,” January 12, 2006.

              An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                         Page 15
           Insufficient or Nonexistent Work Space

           Many members said they are working in cramped and overly crowded work
           areas. It is not clear whether the availability of adequate working space was
           taken into account as new positions were generated for the deployment of the
           teams. Additionally, as of July 2006, a Rock Island team that was authorized
           in FY 2004 has not been established because there is no available facility from
           which team members can work. An officer explained that the team was
           designated, but the building to house them has not been completed. A
           supervisor noted that officers were selected for the Rock Island team, but they
           have since taken other jobs because the team was never formed.

           In FY 2005, the Office of Detention and Removal Operations established a
           team that would be housed at a later date in a satellite office 60 miles from the
           team’s field office. This team began operations in October 2005 and was
           staffed with four deportation officers and one supervisory deportation officer.
           Because no office space was available in the satellite office at the time, the
           team operated out of the field office from October 2005 to March 2006. The
           team performed their duties in the field office, such as database checks and
           other tasks associated with locating fugitives, while apprehending fugitives in
           the area of the satellite office. During this time, the officers were on “per
           diem” as the location of their office was not their official duty station,
           although they were apprehending fugitives in the area of the official duty
           location.

           In March 2006, the team was given limited office space in their satellite
           office. Two deportation officers and one immigration enforcement agent
           assigned to the team work in a small room that was previously a detention cell
           and was later converted to an interview room. One officer measured the room
           and said that it was 12 feet by 15 feet, or 180 square feet. Another deportation
           officer sits at a table that holds the team’s fax machine. The supervisory
           deportation officer has an office that was previously an interview room, and
           the deportation assistant sits at the desk of the satellite office receptionist.

           Other teams have working conditions that are less than ideal. Because the
           Office of Detention and Removal Operations’ building in one Midwest city
           was already overcrowded when the Fugitive Operations Team was established
           in FY 2003, team members worked in office space loaned to them from CBP
           in a terminal at the local airport. In another example, five members of a
           Northeast team work in a “chopped up office” that was originally designed for
           two people.

           Without sufficient office space, accurate and up-to-date databases, and
           detention space commensurate with apprehensions made by Fugitive


An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 16
              Operations Teams, the teams’ effectiveness is limited, making it difficult to
              work at maximum capacity.

              Recommendation

              We recommend that the Assistant Secretary for United States Immigration and
              Customs Enforcement:

              Recommendation 2: Conduct an assessment of the working space presently
              available to all Fugitive Operations Team members and develop a detailed
              plan to ensure that current and future officers are provided an adequate
              working environment that meets applicable federal standards.


Removal Rate of Teams’ Fugitive Alien Apprehensions Cannot Be
Determined
              We were unable to determine the removal rate of fugitive aliens apprehended
              by Fugitive Operations Teams. If fugitives captured by teams are not
              removed, the ultimate objective of final orders of removal has not been
              achieved, and the efforts of the teams are undermined. As the Office of
              Detention and Removal Operations noted in its Strategic Plan, Endgame:

                        Moving toward a 100% rate of removal for all removable
                        aliens is critical to allow the ICE to provide the level of
                        immigration enforcement necessary to keep America secure.
                        Without this final step in the process, apprehensions made by
                        other DHS programs cannot truly contribute to national
                        security.

              Also, according to an ICE fact sheet, the “[National Fugitive Operations
              Program’s] goal is to eliminate the backlog of fugitive aliens and ensure that
              the number of aliens deported equals the number of final orders of removal
              issued by the immigration courts in any given year.”

              We could not determine the percentage of team-apprehended fugitive aliens
              removed from the United States by the Office of Detention and Removal
              Operations. In its National Fugitive Operations Program weekly statistical
              report, the office recorded, in separate columns, the total number of
              apprehended fugitive and non-fugitive aliens. According to the Detention and
              Deportation Officer’s Field Manual, these non-fugitive alien apprehensions,
              also referred to as “collateral apprehensions” or “incidental arrests,” are the
              “apprehensions of persons other than fugitive aliens,” which have not been
              issued final orders of removal. Fugitive Operations Team members are
              charged with taking these individuals into custody and placing them into

   An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                              Page 17
                           removal proceedings. However, the numbers of apprehended fugitives and
                           non-fugitive aliens were combined to account for the total number of
                           apprehensions.

                           The report also contained a column showing the total number of aliens
                           removed from the country. However, the report does not specify whether the
                           removed aliens were fugitive or non-fugitive aliens or whether a Fugitive
                           Operations Team or non-Fugitive Operations Team member made the
                           apprehensions. Accordingly, we were unable to determine the percentage of
                           fugitive alien apprehensions removed.

                           As of June 2006, according to reports from the Office of Detention and
                           Removal Operations, 49,473 illegal aliens were apprehended, of which 37,443
                           were fugitives. Also according to data extracted from the Deportable Alien
                           Control System as of July 2006, the office reported removing 32,206 of those
                           illegal aliens, or 65% of the total apprehended. Since the office does not
                           distinguish between fugitives and non-fugitives in its removal figures, we
                           could not determine the percentage of fugitive aliens removed from the
                           country. More specifically, it is unknown how many of the fugitive aliens
                           apprehended by the teams were removed. When fugitive aliens have not been
                           removed, they are likely released into the United States on their own
                           recognizance or an order of supervision.

                           The United States Supreme Court has determined that aliens could not be held
                           indefinitely if there was no likelihood they would be removed from the
                           country in the foreseeable future.12 In these situations, aliens who cannot be
                           removed are released from custody. The release of fugitive aliens undercuts
                           the productivity of Fugitive Operations Teams and counteracts the deterrence
                           posed by effective apprehension.

                           Recommendation

                           We recommend that the Assistant Secretary for United States Immigration and
                           Customs Enforcement:

                           Recommendation 3: Provide the resources needed by the Office of
                           Detention and Removal Operations to detain, process, and remove all fugitive
                           aliens apprehended by the Fugitive Operations Teams.




12
  Zadvydas v Davis, 533 U.S. 678 (2001); Clark v Martinez, 543 U.S. 371 (2005). (The Office of Detention and
Removal Operations may detain an alien for a presumptively reasonable six-month period. If after six months it is
determined that the alien’s removal is not significantly likely in the reasonable foreseeable future, then the alien must be
released, unless the alien meets stringent criteria for continued detention.)

               An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                           Page 18
Team Members Performed Non-Fugitive Operations Duties
              Although Fugitive Operations Teams are prohibited from performing duties
              not associated with fugitive operations, almost all team members reported
              performing collateral duties while assigned as team members. Collateral
              duties include firearms instructor, juvenile coordinator, and jail inspector.

              According to an Office of Detention and Removal Operations document,
              “non-fugitive operations duties” include, but are not limited to, docket
              management, bond management, Institutional Removal Program operations,
              travel document issues, domestic and foreign alien escorts, and jail inspection.
              “Fugitive operations duties” are identified as case preparation, field
              investigation, surveillance, apprehension operations, criminal prosecutions,
              court time, and task force participation.

              Team members also reported that, while serving as a member of the team,
              they were involved in escorting aliens returning to their country of origin or
              from local jails to an Office of Detention and Removal Operations facility,
              taking bonds, escorting special interest aliens to court appearances, and
              managing the detained and non-detained dockets.

              While team members are performing non-fugitive operations duties, they are
              unable to identify, locate, or apprehend fugitives. However, many officers we
              interviewed indicated that in January 2006, management began to enforce its
              policy restricting team members from performing non-fugitive operations
              duties. The exception to this policy was assigning them to serve as firearms
              instructors for mandatory quarterly firearms qualifications. Certified firearms
              instructors oversee the qualifications and assist remedial officers who have
              difficulty meeting the qualification standards.

              The Office of Detention and Removal Operations’ policy prohibits team
              members from performing non-fugitive operations duties. According to the
              Detention and Deportation Officer’s Field Manual, Fugitive Operations Team
              members:

                        •   Shall only be assigned to fugitive cases with an emphasis on
                            backlog cases.

                        •   Shall not be assigned to any duties that will deter them from
                            conducting fugitive operations, including but not limited to, case
                            management of the general detained or non-detained dockets,
                            escorts and collateral duties normally accomplished by general
                            assignment deportation officers.



   An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                              Page 19
                        Also, according to an ICE fact sheet, “The designated [Fugitive Operations
                        Teams], strategically deployed around the country, work solely on those cases
                        identified as fugitives and attempt to locate and apprehend those persons who
                        will ultimately be removed from the United States.” (Emphasis added.)

                        Additionally, a previous Office of Detention and Removal Operation’s
                        director sent a memorandum to all field office directors in December 2003
                        reiterating that team members are only to conduct fugitive operations duties.13
                        The memorandum cited examples of prohibited tasks, such as escorts, taking
                        bonds, court details, and consular liaison.

                        For example, one team member was a juvenile coordinator for the field office
                        and, as such, had to attend to the special needs of juveniles in the Office of
                        Detention and Removal Operations’ custody. Although he could not estimate
                        the time he devoted to juvenile coordinator duties, he recalled escorting at
                        least seven juveniles since being assigned to the team in October 2005. The
                        director for this field office indicated there had not been a juvenile coordinator
                        training course offered in some time. Therefore, he could not assign this duty
                        to another officer in the field office. Without available training, non-Fugitive
                        Operations Team members cannot be certified to perform juvenile coordinator
                        duties to supplant the officers assigned to the teams.

                        Another team member reported that the team provided transportation for
                        special interest aliens suspected of terrorist activity. This involves picking up
                        illegal aliens in local jails and transporting them to the Office of Detention
                        and Removal Operations’ detention facilities or to criminal court appearances.
                        This officer indicated that the team normally spent approximately two days
                        per week transporting aliens. The director for this office said he assigned
                        Fugitive Operations Teams to jail transport activities because of their training
                        and proficiency in handling rifles and assault-type weapons.

                        Several team members were also certified firearms instructors. Most reported
                        overseeing the quarterly firearms qualifications for all officers in their field
                        office. One officer reported spending about five weeks during the year
                        performing this collateral duty. Another supervisory officer estimated that a
                        firearms instructor spends two hours per day for four or five days each quarter
                        on firearms instruction. That estimate equates to 40 hours per year. Even
                        after management began enforcing its policy restricting Fugitive Operations
                        Teams from performing non-fugitive operations duties, officers continued to
                        perform firearms instructor duties.



13
 Office of Detention and Removal Operations Memorandum, “Utilization of Fugitive Operations Team Members,”
December 3, 2003.

             An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                        Page 20
                         Also, many Fugitive Operations Team officers explained that they were
                         required to continue performing the duties for which they were assigned
                         before joining the teams. These assignments primarily involved managing
                         non-detained docket cases until another officer was hired to backfill the
                         vacancy created when the deportation officer was reassigned to the team.

                         Recommendations

                         We recommend that the Assistant Secretary for the United States Immigration
                         and Customs Enforcement:

                         Recommendation 4: Assign Fugitive Operations Team members in a manner
                         consistent with its Detention and Deportation Officer's Manual or amend the
                         manual to reflect current assignment practices.

                         Recommendation 5: Train and certify deportation officers who are not
                         assigned to a Fugitive Operations Team to perform collateral duties, as needed
                         in each field office, including firearms instructors, jail inspectors, and juvenile
                         coordinators.


        Progress Has Been Made in Staffing the Teams
                         Despite operating under hiring restrictions that hindered staffing for more than
                         two years, ICE has made progress in establishing additional teams. In
                         October 2006, the Office of Detention and Removal Operations announced
                         there were 50 Fugitive Operations Teams nationwide.14 This is a significant
                         achievement considering the 16 teams apprehending fugitive aliens in June
                         2005.15 According to the office’s acting director at the time, the Office of
                         Detention and Removal Operations planned to have all 52 authorized teams in
                         place by the end of FY 2006.

                         Although progress has been made to establish Fugitive Operations Teams, all
                         teams are not fully staffed. Only 225, or 76%, of the 297 positions authorized
                         for 44 teams through FY 2005 have been filled.

                         In May 2006, the Office of Detention and Removal Operations provided a
                         staffing list that outlined 352 authorized field positions for 52 Fugitive
                         Operations Teams. Our analysis of filled positions does not include an
                         additional 55 personnel authorized for eight teams in FY 2006. We were

14
   ICE news release, “ICE Adds Seven New Fugitive Operations Teams to its Nationwide Arsenal: 496 Fugitives
Arrested by San Antonio Team,” August 10, 2006.
15
   ICE news release, “187 Arrested in Major ICE Criminal Alien Fugitive Operation: ICE and New England Law
Enforcement Partners Arrest Criminals with Convictions for Violent Crimes,” June 16, 2005.

              An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                         Page 21
                             provided an updated staffing list in August 2006, which did not provide
                             sufficient information to be analyzed and, therefore, was not included.

                             Obstacles to Hiring Team Members on a Timely Basis

                             The most significant obstacle to resolving the staffing shortfall was the ICE
                             hiring restrictions imposed from March 2004 to July 2006. During this
                             period, ICE was subject to three phases of hiring restrictions: (1) an initial
                             hiring freeze through September 2004; (2) a period of severely restrictive
                             hiring of crucial positions pending approval from a waiver board that was
                             established to review all requests and justifications for hiring lasting through
                             May 2005; and (3) 14 months of minor hiring restrictions, during which
                             waivers were only required before a date could be set for a selected individual
                             to enter on duty and actions involving permanent change of stations requiring
                             moving funds. The waiver board and all hiring restrictions were finally
                             dissolved in July 2006.

                             A large volume of applicants seeking positions within the Office of Detention
                             and Removal Operations also affected hiring. When hiring restrictions were
                             lifted, many general vacancies, including Fugitive Operations Team positions,
                             had to be filled. A human resources manager stated there was a minimum of
                             120 vacant positions announced at that time that resulted in the office
                             receiving thousands of applications. The manager also said the applicant pool
                             for Fugitive Operations Team positions had been very large, with the office
                             receiving nearly 500 applications from deportation officers, immigration
                             enforcement agents, CBP inspectors, and Border Patrol agents for one
                             vacancy. Processing substantial numbers of applications contributed to hiring
                             delays for team positions.

                             The Office of Detention and Removal Operations’ dependence on a human
                             resources service center managed by CBP in Laguna Niguel, California,
                             which itself is understaffed, is another factor that affects filling positions. The
                             service center is responsible for non-entry level hiring of the Office of
                             Detention and Removal Operations’ employees and provides support to the
                             office for staffing, personnel actions, payroll, promotions, and benefits.

                             In FY 2005, the service center announced 379 vacancies, reviewed 26,764
                             applications, issued 1,196 selection lists, and processed 455 selections.16 The
                             service center’s staffing unit is authorized 15 staff members. As of July 2006,
                             it had nine staffing specialists and four human resources assistants. Five of
                             the specialists service the Office of Detention and Removal Operations’
                             programs full time. In addition, the office recently agreed to provide the
                             staffing unit with four contractors, who will assist them in performing human

16
     The Laguna Niguel Service Center provided statistics in a report dated October 18, 2005.

                 An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                            Page 22
                         resource assistant work. The shortage of manpower to process large volumes
                         of applications was a contributing factor to delays in hiring team members.

                         Another factor inhibiting the timely staffing of Fugitive Operations Teams
                         was DHS’ Secure Border Initiative, which was announced in November 2005.
                         As a result of the initiative, new detention facilities were to be opened in
                         various locations, which also required supervisory deportation officers,
                         deportation officers, supervisory immigration enforcement agents,
                         immigration enforcement agents, and support staff. A CBP human resources
                         manager noted the initiative created a “volume and urgency” to hire for that
                         program alone, adding to the already heavy workload of the staffing unit.

                         The security clearance process has also been an impediment to hiring. Under
                         legacy INS, verifying whether applicants had security clearances involved
                         only checking current employees’ social security numbers. After this cursory
                         check, the individual would be cleared since no background investigation was
                         needed. However, under DHS, the security clearance verification process
                         changed. When the individual was an ICE employee, the process described
                         above was followed. When, however, the applicant came from CBP or
                         another entity, a background investigation had to be conducted even when the
                         applicant already had a valid security clearance. The security clearance
                         required submission of the necessary paperwork, conduct of the background
                         investigation, and adjudication of the results of the investigation before the
                         security clearance could be granted.

                         In January 2006, the requirements changed again, allowing for quicker
                         security checks for both ICE and CBP employees. Now, they only have to fill
                         out forms when a five or ten-year reinvestigation is necessary. This policy
                         change expedited the hiring process.

                         Progress in Hiring Made But Teams Not Fully Staffed

                         Despite the obstacles to hiring, progress has been made as demonstrated by
                         the increase of teams from 16 to 45 since June 2005.17 As of May 2006, 76%
                         of the positions authorized for 44 teams through FY 2005 were filled, while
                         only four were fully staffed. At the time of our fieldwork, twenty teams had
                         five or six members on board, and the remaining teams had four or less
                         members. The Rock Island team remained vacant.

                         Eight Fugitive Operations Teams were authorized for FY 2006, five of which
                         were deployed to locations that did not have teams in prior years. Of the 35
                         authorized personnel for these five teams, only five members, or 14%, were

17
  ICE news release, “ICE Adds Seven New Fugitive Operations Teams to its Nationwide Arsenal: 496 Fugitives
Arrested by San Antonio Team,” August 10, 2006.

              An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                         Page 23
               on board. We did not include the three remaining teams authorized for FY
               2006 because they were deployed to locations that previously had Fugitive
               Operations Teams.

               Headquarters and other locations that support Fugitive Operations Teams are
               also not fully staffed. In addition to the field staff, the National Fugitive
               Operations Program has additional positions to support the teams that are
               assigned to the Office of Detention and Removal Operations’ headquarters,
               the Federal Law Enforcement Training Center in Glynco, Georgia, and the
               Fugitive Operations Support Center in Burlington, Vermont. In February
               2006, only 20 of the 40 authorized support staff, or 50%, were on-board. The
               staffing list provided on May 26, 2006 did not include figures for Fugitive
               Operations Teams’ support staff. Therefore, our analysis does not include the
               authorized staff for the Fugitive Case Management Unit because these
               numbers were not provided in the February 2006 staffing list. In addition,
               these figures do not include authorized positions that have not been assigned.

               The hiring restrictions imposed from March 2004 to July 2006 and the delays
               associated with the CBP service center inhibited the timely hiring of the
               teams. Lifting the waiver requirements, conducting faster security checks,
               and employing additional personnel to the human resources unit will expedite
               the hiring process. Many teams have been established nationwide, but
               numerous vacancies remain. As a consequence, the teams’ effectiveness is
               reduced.


Partnerships with Federal, State, and Local Agencies are Effective
               The teams are successfully liaising and coordinating with other entities to
               locate and apprehend fugitive aliens through partnerships in obtaining
               information on fugitive aliens and enlisting other entities’ participation in
               Fugitive Operations Team-led apprehensions.

               Networking Important to Obtain Fugitive Leads

               With 623,292 fugitive aliens to locate and apprehend, all teams obtain
               information on fugitives and generate leads as to their locations by enlisting
               the aid of federal, state, and local partners, including the following:
                   • Department of Labor
                   • Social Security Administration
                   • United States Marshals Service
                   • Federal Bureau of Prisons
                   • State departments of corrections, parole, and probation
                   • Local law enforcement and jails


    An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                               Page 24
                          The Detention and Deportation Officer’s Field Manual directs the Fugitive
                          Operations Teams to establish relationships with external agencies to share
                          information on fugitive aliens that may lead to successful apprehensions.18
                          The teams’ reliance on these agencies for intelligence gathering provides
                          added resources that might not have been available otherwise.

                          Although such contacts are useful to maintain the networking capacity
                          between the agencies, access to the agencies’ databases can be more effective
                          than coordinating information requests. Having the ability to search a number
                          of databases allows access to a larger pool of information.

                          Information Sharing and Data Reconciliation Important in Providing Valid
                          Fugitive Leads

                          The Fugitive Operations Teams have successfully partnered with individual
                          federal, state, and local departments and agencies on an ad hoc basis to
                          acquire information about fugitive aliens. At the national level, data
                          collection can be expanded through the use of information sharing agreements
                          with various federal agencies. The Office of Detention and Removal
                          Operations has negotiated three agreements to access data from the databases
                          of other federal agencies and obtain information on the identification and
                          location of potential fugitive aliens.

                          In pursuit of information sharing practices encouraged in the USA PATRIOT
                          Act and the Immigration and Nationality Act, which directs any government
                          agency to provide information as to the identity and location of aliens in the
                          United States “to the Service upon request made by the Attorney General to
                          the head of any such department or agency,”19 ICE signed three memoranda
                          of understanding with the Departments of State, Labor, and Housing and
                          Urban Development.20 Under those agreements, ICE provides data on
                          fugitive aliens from the Deportable Alien Control System to those agencies.
                          The agencies then reconcile the data provided with information in their
                          respective databases and any matches found are shared with ICE. A fourth
                          agreement with the United States Marshals Service gives the Marshals direct
                          access to the Deportable Alien Control System to obtain selected aliens’
                          status, history, and other information. This agreement does not give ICE
                          access to the Marshals’ databases.

18
   Office of Detention and Removal Operations, Detention and Deportation Officer’s Field Manual, Chapter 19, Section
4, “Case Assignment, Preparation and Management,” and Chapter 19, Section 19, “ICE Most Wanted Poster.”
19
   PL 82-414, Section 290(b). Codified at 8 USC, Section 1360(b).
20
   Memorandum of Understanding between ICE’s Office of Detention and Removal Operations and the Department of
State, Bureau of Consular Affairs, November 2003; the Department of Labor OIG, April 2004; and the Department of
Housing and Urban Development OIG, November 2004. Interconnection Security Agreement between ICE’s Office of
Detention and Removal Operations and the United States Marshals Service, August 5, 2004.

              An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                         Page 25
           According to a headquarters manager, the Office of Detention and Removal
           Operations has been in the process of negotiating two additional memoranda
           for the past year with the Social Security Administration and the Chicago
           Police Department. However, those agreements had not been finalized as of
           July 2006.

           After the data are exchanged between the Office of Detention and Removal
           Operations and its federal partners, the data must be reconciled. A
           headquarters manager explained that although the data exchange might have
           identified matches between the databases, further data resolution must occur
           before leads are sent to the field. This ensures that the fugitive’s identity and
           background information are valid.

           The exchange and reconciliation of data at the headquarters level would
           provide access to larger amounts of data that the individual teams might not
           have access to at the local level. The reconciliation of fugitive alien data and
           the preparation of viable leads for the teams originating at headquarters would
           permit the teams to focus on apprehensions and spend less time performing
           searches in various databases. Although information-sharing agreements
           exist, they have not been fully utilized because the exchange of data and its
           reconciliation have not been occurring on a regular basis.

           Currently, deportation officers search for fugitives in various federal, state,
           and local databases. A formal information-sharing agreement or approved
           access to external databases would expand the scope of searches compared to
           the officers’ individual queries.

           Fugitive Operations Conducted with Federal, State, and Local Law
           Enforcement Agencies

           Coordination exists between the Fugitive Operations Teams and federal, state,
           and local law enforcement agencies in conducting multi-jurisdictional fugitive
           operations. Specifically, the teams contact law enforcement officers to inform
           them of their anticipated activities in the area prior to conducting an operation.
           This coordination allows teams to tailor their operations to avoid conflicts
           with any ongoing investigations concerning the targeted fugitive or the
           jurisdiction in which the operation would take place.

           In addition, many teams have solicited the assistance of local law enforcement
           officers to participate in fugitive alien apprehensions. In such instances, the
           local police typically only provide support through their uniformed presence
           and do not participate in apprehensions or the interview process.



An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 26
           According to a local law enforcement officer who participated in Fugitive
           Operations Team-led operations, most people are afraid of the officers in
           plainclothes and a uniformed police officer often eases their concerns.
           Therefore, Fugitive Operations Teams frequently seek uniformed officers’
           presence during apprehensions when possible. In one fugitive apprehension
           we observed, the team called the local police department and requested
           uniformed assistance. Upon the two uniformed police officers’ arrival, the
           team provided them with information on the targets, such as their identity,
           photographs, and criminal history. At the fugitive’s residence, we observed
           the team and police officers secure the exterior and interior of the house.

           Although the police officers were present, the Fugitive Operations Team was
           responsible for watching the target and others in the residence to ensure they
           did not present a threat. Team members conducted the interview and obtained
           the fugitive’s passport, which identified the fugitive’s country of origin. Once
           the apprehension was made, the team took custody of the fugitive and the
           police officers departed the scene.

           The process is largely the same in major operations planned by the Fugitive
           Operations Teams. Since June 2005, the teams have conducted major
           operations throughout the nation, including:

                •    Operation Return to Sender, a nationwide initiative,
                •    Operation City Lights in Las Vegas,
                •    Operation Phoenix in Florida,
                •    Operation Deep Freeze in Chicago, and
                •    Operation FLASH in New England.

           These major operations were coordinated efforts to identify, locate, and
           apprehend a large number of fugitive aliens in a short period of time.
           Combinations of Fugitive Operations Teams from various areas, investigators
           from ICE’s Office of Investigations, the United States Marshals Service,
           various state departments of corrections and motor vehicles, and other federal,
           state, and local departments and law enforcement agencies participated. For
           example, according to a county sheriff whose deputies participated in
           Operation FLASH, the Fugitive Operations Team contacted his office and
           requested deputies to assist in an operation. He explained that the
           participating deputies received direction from the Office of Detention and
           Removal Operations’ field commander.

           In addition, the teams participate in operations and task forces led by other
           agencies, such as ICE’s Office of Investigations’ Operation Predator and the
           United States Marshals Service’s Operation Falcon. The Fugitive Operations
           Teams strengthen and reinforce their networks with other agencies by offering
           their resources and manpower to these initiatives.

An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 27
                          To enhance their effectiveness further, one field office has sought the aid of
                          three local law enforcement agencies by formalizing cooperative agreements
                          to establish a joint fugitive task force. The agreements specify that additional
                          law enforcement officers will be provided at the expense of the partnering
                          agencies to assist the team in locating, apprehending, and locally transporting
                          fugitive aliens. According to one non-Fugitive Operations Team task force
                          member, his responsibilities are the same as the Fugitive Operations Team
                          members but the teams are more knowledgeable of the administrative aspects
                          of immigration procedures.

                          These agreements were negotiated under legacy INS. The Office of Detention
                          and Removal Operations’ field office is currently drafting cooperative
                          agreements with the same agencies outlining identical roles and
                          responsibilities under ICE authority. As of August 2006, the agreements had
                          not been finalized.

                          Although the degree of coordination with federal, state, and local law
                          enforcement agencies differs among Fugitive Operations Teams, the teams are
                          networking effectively with the wider law enforcement community. This
                          coordination of activities has proven beneficial in increasing the teams’
                          effectiveness.

                          Certain Cities Prohibit Local Law Enforcement Authorities from Assisting
                          with Immigration Enforcement

                          A few Fugitive Operations Team members explained that some cities have
                          policies prohibiting local law enforcement agencies from assisting teams to
                          locate fugitive aliens. Specifically, a few major cities have policies that
                          prohibit local law enforcement officers from questioning immigrants,
                          contacting federal authorities, or providing the identity and location of illegal
                          immigrants in the communities.

                          The Denver Police Department, for example, has a policy stating that officers
                          should not initiate any action to determine a person’s immigration status.
                          Furthermore, officers will generally “not detain, arrest, or take enforcement
                          action” against an individual on suspicion of being illegal.21 One Office of
                          Detention and Removal Operations officer said San Francisco is considered a
                          “sanctuary city” and local police departments are prohibited from assisting
                          team members. Specifically, a San Francisco ordinance limits the



21
  This policy is not applicable when the individual is arrested for other charges. Denver Police Department, Denver
Police Department Operations Manual, “Arrests,” 104.52(3), Revised July 2005.

               An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                          Page 28
                          circumstances under which city and county officers assist in enforcing federal
                          immigration law or gathering or disseminating information on residents’
                          immigration status.22

                          According to the Office of Detention and Removal Operations officer, the San
                          Francisco Fugitive Operations Teams coordinate with only a few non-federal
                          agencies in the region. Although the teams reach out to other agencies, there
                          are cities with policies that limit the teams from effectively partnering with
                          local law enforcement agencies.

                          The Fugitive Operations Teams need the resources and manpower that local
                          law enforcement agencies possess. Partnerships with local officers, who are
                          more connected to the communities they serve, are a major tool team
                          members can use to locate and apprehend fugitive aliens.

                          Recommendations

                          We recommend that the Assistant Secretary for the United States Immigration
                          and Customs Enforcement:

                          Recommendation 6: Negotiate information sharing agreements with federal,
                          state, or local agencies that can provide access to information pertaining to
                          fugitive aliens and provide the resources needed by the Office of Detention
                          and Removal Operations to reconcile data from those agencies.


        Team Members Have Basic Law Enforcement Training
                          The Fugitive Operations Training Program offered at the Federal Law
                          Enforcement Training Center provides team members basic tools to locate and
                          apprehend fugitive aliens and introduces participants to standard procedures
                          involving fugitive operations. Since many teams have been recently staffed,
                          not all team members have attended the training program, which they are
                          required to attend within two years of their assignment to the team.23
                          According to the Detention and Deportation Officer’s Field Manual, though,
                          before a field office director can authorize an officer’s participation in fugitive
                          operations, the officer must have completed some basic law enforcement
                          training.24 Although not all team members have attended the Fugitive


22
   City of San Francisco, San Francisco Administrative Code, Ordinance Code Chapter 12H, 1989.
23
   Office of Detention and Removal Operations, Detention and Deportation Officer’s Field Manual, Chapter 19, Section
16, “Fugitive Operations Training Requirements,” December 10, 2004.
24
   Office of Detention and Removal Operations, Detention and Deportation Officer’s Field Manual, Chapter 19, Section
1, “Introduction to Fugitive Operations Policy and Procedure Manual and Historical Perspective,” August 21, 2003,
page 5.

              An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                         Page 29
                          Operations Training Program, at a minimum, they all have completed some
                          basic law enforcement training.

                          Fugitive Operations Training Program

                          The three-week Fugitive Operations Training Program offers basic training in
                          fugitive operations to all officers performing fugitive operations. This
                          includes fugitive case file preparation and review, database queries useful for
                          locating fugitives, networking options, use of confidential informants,
                          surveillance, and planning and conducting apprehension operations.25

                          There have been 21 courses and 469 Office of Detention and Removal
                          Operations personnel have attended the course from FY 2004 to FY 2006.
                          The Federal Law Enforcement Training Center provided the training
                          program’s student rosters as of May 1, 2006. The FY 2003 rosters were not
                          included. Other Office of Detention and Removal Operations officers not
                          serving on the Fugitive Operations Teams attended the training program as
                          well.

                          Many team supervisors noted that most of their deportation officers have
                          completed the requisite training to conduct fugitive operations but not all team
                          members have attended the Fugitive Operations Training Program. The
                          supervisors said those members would be scheduled to attend. Some team
                          members completed the training more than once and others attended the
                          course before joining the team.

                          In addition, while teams are encouraged to seek refresher training at the local
                          level, there is no national refresher course for the Fugitive Operations Teams.
                          Although the Fugitive Operations Training Program course may be updated to
                          reflect changes in immigration law or procedures, the new or updated
                          information would be presented only to those attending subsequent course
                          sessions.

                          Experience in Law Enforcement and Fugitive Operations

                          With the exception of the deportation assistants, all team members must have
                          successfully completed the Immigration Officer Basic Training Course or the
                          United States Border Patrol Academy prior to being assigned to a Fugitive
                          Operations Team.26 Vacancy announcements for officer positions indicate
                          applicants must have completed either of these entry-level courses or other
                          equivalent ICE training programs. These training courses offer instruction on
25
   DHS, ICE, Fugitive Operations Training Course: Participant Workbook, July 8, 2003.
26
   Office of Detention and Removal Operations, Detention and Deportation Officer’s Field Manual, Chapter 19, Section
1, “Introduction to Fugitive Operations Policy and Procedure Manual and Historical Perspective,” August 21, 2003,
page 5.

              An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                         Page 30
                          laws pertaining to immigration and nationality, criminal statutes and statutory
                          authorities, agency operations and procedures, defensive tactics, use of
                          firearms, and drivers training.27

                          Fugitive operations require team members to review and update the
                          Deportable Alien Control System and documentation in alien files to
                          determine whether an alien is illegal, subject to removal, and whether actions,
                          such as a petition to change their immigration status or an appeal with the
                          immigration courts, are pending.28 The Fugitive Operations Teams are to
                          verify whether a fugitive has filed a petition for a change in immigration
                          status or has an appeal pending before the Executive Office for Immigration
                          Review’s Board of Immigration Appeals or the federal courts because this
                          will affect the ability to remove the fugitive.

                          Such determinations call for a comprehensive understanding of immigration
                          laws and regulations, as well as knowledge of the immigration court process
                          involving the Executive Office for Immigration Review. Once this
                          determination is made, the fugitive must be located and apprehended without
                          endangering the officers. Training assists in equipping team members to
                          successfully perform their jobs. Therefore, it is crucial that all Fugitive
                          Operations Team members complete their training requirements. Further,
                          team members should receive periodic refresher instruction whenever there
                          are legislative changes or information technology upgrades.

                          Recommendation

                          We recommend that the Assistant Secretary for the United States Immigration
                          and Customs Enforcement:

                          Recommendation 7: Assess the training requirements and needs of the
                          Fugitive Operations Teams and consider establishing a fugitive operations
                          refresher course.




27
   DHS, Federal Law Enforcement Training Center Catalog of Training Programs, 2005-2006, March 2005, page 96
and CBP Border Patrol Academy courses at
http://www.cbp.gov/xp/cgov/careers/customs_careers/border_careers/bp_academy/bp_acad_courses.xml.
28
   Office of Detention and Removal Operations, Detention and Deportation Officer’s Field Manual, Chapter 19, Section
4, “Case Assignment, Preparation and Management,” page 3.

              An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                         Page 31
Management Comments and OIG Analysis
              ICE provided specific responses on each of the seven recommendations and
              technical comments on particular statements and facts contained within the
              draft report. ICE requested that the technical comments be published with the
              final report if not adopted in their entirety. In addressing ICE’s technical
              comments, we evaluated each comment on its merit and modified our report
              where appropriate. ICE requested language changes throughout the report,
              such as “apprehensions” to “arrests” and “apprehension reports” to
              “enforcement activity reports.” We did not make the technical changes
              because use of those terms occurred after the completion of our fieldwork.
              However, the technical comments were included in their entirety in Appendix
              E of this report. We revised Recommendation 4 and ICE provided an
              amended response to that recommendation, which is also included in
              Appendix E. ICE concurred with all seven recommendations. One
              recommendation is closed and six remain open.

              Recommendation 1: Establish a Fugitive Operations Team reporting system
              that enables Office of Detention and Removal Operations managers to classify
              all categories of apprehensions.

              ICE Response: ICE concurred with this recommendation. ICE developed
              the Fugitive Case Management System in April 2005 but the system was not
              certified and accredited for use by the ICE Office of the Chief Information
              Officer until March 3, 2006. From June 27-28, 2006, ICE supervisors met in
              St. Louis, Missouri, for Fugitive Case Management System training. The
              system was made available to all field offices on August 28, 2006 to report
              fugitive operations activities, generate various management reports, and
              measure team performance.

              As officers enter activities into the Fugitive Case Management System, they
              differentiate between various actions by choosing the appropriate
              classification for each case from a “drop-down” menu. Additionally, the
              system is capable of identifying the officer who performed the action, thereby
              differentiating between Fugitive Operations Team and non-Fugitive
              Operations Team personnel. Using data entered into the Fugitive Case
              Management System, the Office of Deportation and Removal Operations can
              now track field activity by actual arrests, case closures, category changes, and
              placement of detainers. This function was not previously available.

              OIG Analysis: We consider the recommendation resolved and closed. ICE’s
              actions meet the requirements of this recommendation. We reviewed reports
              from the Fugitive Case Management System and were satisfied that the
              system appropriately classified each category of apprehensions.


   An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                              Page 32
           In addition to ICE’s response to this recommendation, the Office of
           Deportation and Removal Operations submitted technical comments under
           separate cover, requesting that all comments be included in the draft report.
           The comments pertaining to this recommendation were a reiteration of the
           formation and capability of the Fugitive Case Management System, which
           was described in detail in ICE’s response and incorporated into our report. To
           avoid repetition, we did not include these comments because comparable
           language had been used in ICE’s response to the draft report.

           Recommendation 1 – Resolved – Closed


           Recommendation 2: Conduct an assessment of the working space presently
           available to all Fugitive Operations Team members and develop a detailed
           plan to ensure that current and future officers are provided an adequate
           working environment that meets applicable federal standards.

           ICE Response: ICE concurred with this recommendation and is taking steps
           toward its implementation. In its response, ICE said that a Space Allocation
           Survey is incorporated into the systematic process for identifying the needs of
           additional workspace and then assessing the available resources to
           accommodate such requests. In addition to the Space Allocation Survey, in
           October 2006, ICE asked affected field offices to identify their facility needs
           for the deployment of new Fugitive Operations Teams for FY 2007.

           ICE said that space acquisition must be coordinated with the General Services
           Administration and CBP. In the second quarter of FY 2007, the Office of
           Detention and Removal Operations will propose and develop a coordinated
           space acquisition plan with all entities involved in the process.

           OIG Analysis: ICE is taking steps to implement this recommendation,
           therefore it is resolved. However, the recommendation will remain open until
           ICE provides us with copies of the space acquisition plan and the Space
           Allocation Survey. We will determine at that time whether they have
           complied with the recommendation.

           Recommendation 2 – Resolved – Open


           Recommendation 3: Provide the resources needed by the Office of
           Detention and Removal Operations to detain, process, and remove all fugitive
           aliens apprehended by the Fugitive Operations Teams.

           ICE Response: ICE concurred in part with this recommendation. In its
           response, ICE reported that not all the issues contained in the recommendation

An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 33
           were within the purview of the Office of Detention and Removal Operations.
           ICE described steps it had taken to improve its ability to detain, process, and
           remove aliens and reported that Congress had earmarked additional funds to
           address detention bed space. ICE said the Office of Detention and Removal
           Operations had satisfied the recommendation within the areas directly under
           its control.

           With the creation of the Detention Operations Coordination Center, ICE now
           coordinates the movement and placement of detained aliens in order to
           effectively allocate detention space. Various Office of Detention and
           Removal Operations units are engaged in activities to develop a
           comprehensive infrastructure that would improve coordinated removal efforts
           and management of detention space. According to ICE, this coordination will
           occur through expeditious information sharing between the Detention
           Operations Coordination Center, the Justice Prisoner and Alien Transportation
           System, and the Office of Detention and Removal Operations’ Air
           Transportation Unit.

           In addition, the Office of Detention and Removal Operations is identifying air
           hubs throughout the United States, with supporting detention space and
           ground transportation contracts, to maximize efficiencies. Justice Prisoner
           and Alien Transportation System flights would serve these hubs through
           regularly established air schedules.

           ICE reported that through capacity planning and bed space management, the
           average number of detained aliens has increased from 20,683 on October 1,
           2005, to 27,390 on September 30, 2006. ICE added that, since November
           2005, 6,300 bed spaces have been added in support of the Secure Border
           Initiative.

           ICE reported that many factors outside the Office of Detention and Removal
           Operations’ control impede its ability to execute removal operations. For
           example, foreign embassies and consulates could refuse or delay the issuance
           of travel documents for their nationals. ICE also said that the Executive
           Office for Immigration Review and the federal courts could directly impact
           the removal process through grants of relief, motions to reopen, issuances of
           stays, and other legal decisions. Additionally, the United States Supreme
           Court has ordered that after 180 days, an alien in ICE custody who possesses a
           final order of removal and is not subject to mandatory custody must be
           released if it appears that removal is not reasonably foreseeable.

           OIG Analysis: ICE’s response described steps taken to implement this
           recommendation, including efforts to improve efficiencies in the detention and
           removal system and increase its detention capacity. ICE described factors
           outside its control that impeded its ability to execute removal operations and

An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 34
           explained that it must comply with the decisions of the United States Supreme
           Court. ICE’s response addresses difficulties associated with all aliens subject
           to removal. However, ICE has not quantified the extent to which these factors
           have impeded the removal of fugitive aliens apprehended by Fugitive
           Operations Teams.

           Moreover, while ICE is correct that the Executive Office for Immigration
           Review and federal courts can directly affect the removal process through
           grants of relief, motions to reopen, issuances of stays, and other legal
           decisions, once these decisions are made the alien is no longer a fugitive alien.
           Assuming this change in status is appropriately made in the Deportable Alien
           Control System, this would result in a fugitive alien case closure in the
           Fugitive Case Management System. As such, the alien would not constitute a
           fugitive alien apprehended by a Fugitive Operations Team member that the
           Office of Detention and Removal Operations did not remove.

           This recommendation is resolved since ICE is taking steps to implement it
           within the areas directly under its control. In order to understand the extent of
           the effect of factors outside ICE’s control, we request that ICE provide the
           number of fugitive aliens apprehended by the teams who were released from
           custody during FYs 2003-2006 due to (1) consulates or embassies delaying
           the issuance of, or refusing to issue, travel documents; and (2) decisions made
           by the Executive Office for Immigration Review or the federal courts, such as
           grants of relief, motions to reopen, or issuances of stays. Additionally, we
           request that ICE identify the total number of fugitive aliens apprehended by
           Fugitive Operations Teams during FYs 2003-2006, and, of that number, the
           total number removed by the Office of Detention and Removal Operations.
           We will evaluate this information to determine whether ICE has complied
           with this recommendation within the areas directly under its control.

           Recommendation 3 – Resolved – Open


           Recommendation 4: Assign Fugitive Operations Team members in a manner
           consistent with its Detention and Deportation Officer's Manual or amend the
           manual to reflect current assignment practices.

           ICE Response: ICE concurred with this recommendation. ICE reported that
           although Fugitive Operations Teams are primarily called upon to perform
           administrative arrests of fugitive aliens, they are also required to assist in the
           overall implementation of ICE compliance measures.

           In its response, ICE said that the Office of Detention and Removal Operations
           policy that restricts team members from performing non-fugitive operations
           duties was not intended to exclude all other collateral assignments. Also, the

An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 35
                        policy was not intended to prohibit the ability of field office directors to
                        redirect resources to accommodate an evolving national agenda or to meet
                        existing circumstances. ICE said it would evaluate these policies within 90
                        days to determine if revisions are necessary.

                        OIG Analysis: This recommendation is resolved and open. ICE’s policy
                        prohibits Fugitive Operations Team members from performing any duties that
                        will deter them from conducting fugitive operations, including collateral
                        duties. A previous Office of Detention and Removal Operations’ director sent
                        a memorandum to all field office directors in December 2003 reiterating that
                        Fugitive Operations Team members were only to conduct fugitive operations
                        duties.29

                        This recommendation will remain resolved and open until ICE implements the
                        recommendation, persuades us that this recommendation is not beneficial or
                        not readily achievable, or proposes an acceptable alternative solution.

                        Recommendation 4 – Resolved – Open


                        Recommendation 5: Train and certify deportation officers who are not
                        assigned to a Fugitive Operations Team to perform collateral duties, as needed
                        in each field office, including firearms instructors, jail inspectors, and juvenile
                        coordinators.

                        ICE Response: ICE concurred in part with this recommendation. In its
                        response, ICE reported that it regularly trains and certifies deportation officers
                        not assigned to a Fugitive Operations Team to perform collateral duties, as
                        needed in each field office, including firearms instructors, jail inspectors, and
                        juvenile coordinators.

                        However, ICE said that any overarching plan that limits the field office
                        directors’ ability or discretion to assign duties would also limit their flexibility
                        to allocate resources for existing circumstances, such as responding to ICE
                        and DHS national priorities.

                        ICE explained that it believes the current level of training and certification for
                        deportation officers not assigned to Fugitive Operations Teams is adequate to
                        meet the collateral needs of the teams and support the broader mission of the
                        agency.



29
 Office of Detention and Removal Operations Memorandum, “Utilization of Fugitive Operations Team Members,”
December 3, 2003.

             An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                        Page 36
           OIG Analysis: ICE reported that it regularly trains and certifies deportation
           officers not assigned to a Fugitive Operations Team to perform collateral
           duties. However, ICE’s discussion of an overarching plan that limits the field
           office directors’ ability or discretion to assign duties to their staff seems to
           address Recommendation 4.

           Because ICE said it regularly trains and certifies deportation officers not
           assigned to a Fugitive Operations Team to perform collateral duties, as needed
           in each field office, including firearms instructors, jail inspectors, and juvenile
           coordinators, this recommendation is resolved.

           ICE reported that the current level of training and certification of non-team
           members was adequate to meet the collateral needs of the teams and support
           the broader mission of the agency. However, ICE did not provide supportive
           information concerning its current level of trained and certified non-team
           members.

           This recommendation will remain open until ICE identifies the number of
           officers not assigned to a Fugitive Operation Team who have been trained and
           certified to perform specific collateral duties in each field office with a
           Fugitive Operations Team. We will evaluate this information and determine
           whether the level of training and certification complies with the
           recommendation.

           Recommendation 5 – Resolved – Open


           Recommendation 6: Negotiate information sharing agreements with federal,
           state, or local agencies that can provide access to information pertaining to
           fugitive aliens and provide the resources needed by the Office of Detention
           and Removal Operations to reconcile data from those agencies.

           ICE Response: ICE concurred with this recommendation and said that it
           continually pursues and maintains information-sharing agreements with
           numerous federal, state, and local agencies. Specifically, ICE said it has
           approximately 330 agreements that support specific ICE needs.

           In addition, ICE is pursuing contractor assistance for the Fugitive Operations
           Support Center. The center, which became fully operational in July 2006, will
           assist the Office of Detention and Removal Operations process data received
           through negotiated information-sharing agreements in several ways. It will
           review and update absconder cases in the Deportable Alien Control System,
           develop leads for and provide assistance to the Fugitive Operations Teams,
           and develop major operations that the teams will conduct. In its response,


An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 37
           ICE said that since it has been in operation the center has resolved 2,488
           absconder cases in the Deportable Alien Control System.

           OIG Analysis: We recognize that ICE has negotiated a number of
           agreements with various federal, state, and local agencies that are designed to
           support and advance specific mission needs. We encourage them to continue
           this effort. Furthermore, ICE established the Fugitive Operations Support
           Center, which will provide assistance in processing data from outside agencies
           and sources. The center will also reconcile the data received and send viable
           leads to support fugitive operations in the field.

           Because of these initiatives, this recommendation is resolved. During our
           review, we learned of four negotiated agreements that provide the Office of
           Detention and Removal Operations access to fugitive alien information.
           Although ICE has other agreements in place, it did not specify in its
           comments how many of those agreements pertain to fugitive aliens. This
           recommendation will remain open until ICE identifies those relevant
           agreements that provide information specifically on fugitive aliens.

           Recommendation 6 - Resolved - Open


           Recommendation 7: Assess the training requirements and needs of Fugitive
           Operations Teams and consider establishing a fugitive operations refresher
           course.

           ICE Response: ICE concurred with this recommendation and initiated a
           review of the existing fugitive operations curriculum in August 2006 to
           determine whether current training manuals and subject matter are relevant.
           In addition, ICE intends to develop a supplemental or refresher course during
           FY 2007 and foresees the development of a refresher course proposal in 90
           days.

           OIG Analysis: ICE’s plan to develop a refresher course proposal during FY
           2007 is responsive to this recommendation. However, the recommendation
           will remain open until ICE provides an update on the status of the refresher
           course proposal.

           Recommendation 7 – Resolved – Open




An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                           Page 38
Appendix A
Removal Proceedings Process



Removal Proceedings Process
                        The Executive Office for Immigration Review, an agency of the Department
                        of Justice, oversees three components that adjudicate matters involving
                        immigration law at both the trial and appellate level. The Executive Office for
                        Immigration Review immigration judges hold evidentiary removal hearings to
                        determine whether certain aliens are removable from the United States.

                        When a Department of Homeland Security (DHS) enforcement official
                        determines that a person is in the United States illegally and the alleged illegal
                        alien denies that allegation, the official serves the alleged illegal alien with a
                        Notice to Appear. The Notice to Appear is a “charging document” that
                        initiates formal removal proceedings and can be served either in person or
                        through the mail. Once this document has been issued, DHS is not permitted
                        to remove the alleged illegal alien from the United States. Generally, a Notice
                        to Appear includes the date, time, and place of the removal hearing, although
                        sometimes it will indicate that a future document will provide the date, time,
                        and place of the hearing. DHS also files these notices with the Executive
                        Office for Immigration Review. At the hearings, attorneys from United States
                        Immigration and Customs Enforcement’s Office of Principal Legal Advisor
                        present evidence that the alleged illegal alien, or “respondent,” is removable.

                        The immigration judge makes two determinations:

                              1. Whether the alleged illegal alien is removable. For example, when an
                                 immigration judge determines that the respondent is a United States
                                 citizen, he or she would not be removable.

                              2. When the respondent is deemed to be removable, then the immigration
                                 judge determines whether the alien is entitled to any relief from
                                 removal. The most common forms of relief are adjustment of status to
                                 that of a lawful permanent resident, asylum, and cancellation of
                                 removal.

                        The immigration judge makes the decision during a recorded proceeding.
                        When the judge finds against the respondent, he or she is issued a final order
                        of removal. When the respondent fails to appear at the hearing, the DHS
                        attorney presents evidence to the immigration judge that the respondent is
                        removable. Based on the evidence, the immigration judges issues an in
                        absentia order. The result of the in absentia hearing is mailed to the
                        respondent. When an immigration judge’s decision is against the respondent,
                        the respondent can appeal to the Board of Immigration Appeals. Likewise,
                        when the immigration judge’s decision is in favor of the respondent, the
                        government may appeal to the Board of Immigration Appeals. The Board’s

             An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                        Page 39
Appendix A
Removal Proceedings Process


                        decisions are subject to review by the federal courts. Aliens who have been
                        issued a final order of removal are required to leave the country.




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 40
Appendix B
Fugitive Operations Support Units




Fugitive Operations Support Units
                            Two support units, the Fugitive Case Management Unit in Laguna Niguel,
                            California, and the Fugitive Operations Support Center in Burlington,
                            Vermont, assist United States Immigration and Customs Enforcement’s (ICE)
                            Fugitive Operations Teams.

                            Fugitive Case Management Unit

                            In March 2004, ICE’s Office of Detention and Removal Operations
                            established the Fugitive Case Management Unit to coordinate all fugitive case
                            leads for the National Fugitive Operations Program. The unit receives
                            information from various sources, primarily from the United States
                            Citizenship and Immigration Services, other agencies such as the Departments
                            of State and Labor, and the Department of Homeland Security’s
                            Transportation Security Administration. The Fugitive Case Management Unit
                            also receives leads generated by the Office of Detention and Removal
                            Operations’ headquarters.

                            The unit’s staff consolidates the information and each week provides a list of
                            fugitive alien leads to appropriate field offices. Also, the Fugitive Case
                            Management Unit might send “hot leads” on fugitive aliens to field offices.
                            Either the Office of Detention and Removal Operations’ headquarters or the
                            Transportation Security Administration makes the determination as to what
                            constitutes “hot leads,” which appear to be credible information that would
                            lead to immediate apprehensions and require the Fugitive Operations Team’s
                            immediate attention. A response must be received within seven days by the
                            unit on the action taken to pursue these type leads. Data in the Fugitive Case
                            Management Unit system are regularly compared to Deportable Alien Control
                            System data to determine if fugitives have criminal convictions. Leads on
                            fugitive aliens with criminal convictions require the Fugitive Operations Team
                            to respond to the Fugitive Case Management Unit with the results of the
                            inquiry within 30 days, and non-criminal leads require a response in 180 days.

                            Fugitive Operations Support Center

                            In October 2005, the Office of Detention and Removal Operations established
                            the Fugitive Operations Support Center to support the teams’ efforts and
                            “enhance the efficiency and effectiveness of the [National Fugitive Operations
                            Program].”30 The center’s operational plan, which was approved in June
                            2006, proposes three goals for the center: (1) improving the integrity of data in

30
     Office of Detention and Removal Operations, Fugitive Operations Support Center Operational Plan, June 2006.

                 An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                            Page 41
Appendix B
Fugitive Operations Support Units



                         the Deportable Alien Control System; (2) developing leads on fugitives for the
                         field; and (3) supporting national ICE and the Office of Detention and
                         Removal Operations’ initiatives, including Operation Community Shield and
                         Operation Predator. Community Shield is designed to disrupt, dismantle, and
                         prosecute violent gang organizations by employing the authorities and
                         investigative tools available to ICE. Operation Predator identifies child
                         predators and removes them from the United States, subject to deportation.

                         As of September 2006, the chief of the Fugitive Operations Support Center
                         said that the staffing plan for the center has not yet been approved. Currently,
                         the center has a staff of ten, including one supervisor, five officers, and four
                         support personnel. Four additional staff members have been authorized but
                         have not come on board as of September 2006.




                    An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                        Page 42
Appendix C
Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
                        The purpose of our review was to determine: (1) the adequacy of the
                        performance measures used to assess the effectiveness of Fugitive Operations
                        Teams in completing their mission; (2) the teams’ progress in reducing the
                        backlog of fugitive alien cases; (3) the adequacy of teams staffing levels
                        resulting from additional funding and the Office of Detention and Removal
                        Operations’ recruitment efforts; and (4) what factors affect the teams’
                        operations, such as coordination activities with internal and external entities
                        and the Office of Detention and Removal Operations’ training policies.

                        We performed fieldwork from February 2006 through June 2006. We
                        interviewed numerous Office of Detention and Removal Operations’
                        managers and analysts at headquarters in Washington, DC. We traveled to
                        Baltimore, Chicago, Detroit, and Los Angeles; interviewed field office
                        directors and Fugitive Operations Team members in those cities; and
                        accompanied officers on fugitive apprehensions. We conducted telephone
                        interviews of field office directors and team supervisors in Atlanta; Boston;
                        Buffalo; Cherry Hill, New Jersey; Denver; Fairfax, Virginia; Houston; Miami;
                        Newark; New York City; Richmond, Virginia; Salt Lake City; San Francisco;
                        and Seattle.

                        We visited the Fugitive Case Management Unit and United States Customs
                        and Border Protection service center in Laguna Niguel, California, and
                        interviewed staff from both offices. Additionally, we conducted a telephone
                        interview with the chief of the Fugitive Operations Support Center in
                        Burlington, Vermont. We interviewed, by telephone, a detective from the
                        Boston Police Department and two sheriffs from Plymouth City,
                        Massachusetts, Sheriff’s Departments. Also, we obtained information on the
                        Fugitive Operations Training Program conducted at the Federal Law
                        Enforcement Training Center in Glynco, Georgia.

                        During our fieldwork, we reviewed Fugitive Operations Teams’ documents,
                        such as alien files, target folders, fugitive operations worksheets, weekly
                        fugitive apprehension reports, performance work plans, and fugitive
                        operations plans. We also reviewed fugitive operations documents, the Office
                        of Detention and Removal Operations’ financial management reports, and
                        information on team staffing levels from headquarters. Additionally, we
                        collected and analyzed data from the Deportable Alien Control System and
                        the Fugitive Case Management System and documentation from the Fugitive
                        Case Management Unit, the Fugitive Operations Support Center, and the
                        Federal Law Enforcement Training Center.


             An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                        Page 43
Appendix C
Purpose, Scope, and Methodology



                        This review was scheduled as part of our annual work plan. Our work was
                        conducted under the authority of the Inspector General Act of 1978, as
                        amended, and according to the Quality Standards for Inspections issued by the
                        President’s Council on Integrity and Efficiency.




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 44
Appendix D
Recommendations


Recommendations
                       We recommended that the Assistant Secretary for United States Immigration
                       and Customs Enforcement:

                       Recommendation 1: Establish a Fugitive Operations Team reporting system
                       that enables Office of Detention and Removal Operations managers to classify
                       all categories of apprehensions.

                       Recommendation 2: Conduct an assessment of the working space presently
                       available to all Fugitive Operations Team members and develop a detailed
                       plan to ensure that current and future officers are provided an adequate
                       working environment that meets applicable federal standards.

                       Recommendation 3: Provide the resources needed by the Office of
                       Detention and Removal Operations to detain, process, and remove all fugitive
                       aliens apprehended by the Fugitive Operations Teams.

                       Recommendation 4: Assign Fugitive Operations Team members in a manner
                       consistent with its Detention and Deportation Officer's Manual or amend the
                       manual to reflect current assignment practices.

                       Recommendation 5: Train and certify deportation officers who are not
                       assigned to a Fugitive Operations Team to perform collateral duties, as needed
                       in each field office, including firearms instructors, jail inspectors, and juvenile
                       coordinators.

                       Recommendation 6: Negotiate information sharing agreements with federal,
                       state, or local agencies that can provide access to information pertaining to
                       fugitive aliens and provide the resources needed by the Office of Detention
                       and Removal Operations to reconcile data from those agencies.

                       Recommendation 7: Assess the training requirements and needs of the
                       Fugitive Operations Teams and consider establishing a fugitive operations
                       refresher course.




            An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 45
Appendix E
Management Response to Draft Report




Management Response to Draft Report




             An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                        Page 46
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 47
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 48
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 49
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 50
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 51
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 52
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 53
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 54
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 55
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 56
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 57
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 58
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 59
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 60
Appendix E
Management Response to Draft Report




                   An Assessment of Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 61
Appendix F
Major Contributors to this Report


        Major Contributors to this Report
                          Jacqueline Simms, Senior Inspector, Department of Homeland Security,
                          Office of Inspections

                          Kristine Odiña, Inspector, Department of Homeland Security, Office of
                          Inspections

                          Michael Zeitler, Inspector, Department of Homeland Security, Office of
                          Inspections




               An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                          Page 62
Appendix G
Report Distribution


        Report Distribution

                          Department of Homeland Security

                          Secretary
                          Deputy Secretary
                          Chief of Staff
                          Deputy of Staff
                          General Counsel
                          Executive Secretary
                          Assistant Secretary for Immigration and Customs Enforcement
                          Assistant Secretary for Policy
                          Assistant Secretary for Public Affairs
                          Assistant Secretary for Legislative Affairs and Intergovernmental Affairs
                          DHS OIG Audit Liaison
                          ICE Audit Liaison
                          Chief Privacy Officer

                          Office of Management and Budget

                          Chief, Homeland Security Branch
                          DHS Program Examiner

                          Congress

                          Congressional Oversight and Appropriations Committees, as appropriate




            An Assessment of United States Immigration and Customs Enforcement’s Fugitive Operations Teams

                                                       Page 63
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
